HHS/OIG-Audit--"Review of Empire Blue Cross Blue Shield's Compliance With the Medicare Secondary Payer Statutory Provisions, (A-02-93-01006)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Empire Blue Cross Blue Shield's Compliance With the Medicare Secondary Payer Statutory Provisions," (A-02-93-01006)
June 14, 1994
Complete
Text of Report is available in PDF format (2 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates that over an 82 month period, Empire Blue Cross Blue Shield, a Medicare contractor,
improperly paid $85 million in claims with Medicare as primary payer when the Empire private lines of business should have
been the primary payer for services provided. In addition, the Office of Inspector General (OIG) was unable to render an
opinion on an additional $118 million in potential improper payments since either Empire customers did not cooperate with
our audit or we were unable to contact customers using data supplied by Empire. We are recommending that the Health Care
Financing Administration (HCFA) negotiate a reasonable settlement with Empire taking our estimates of improper payments
into account. The HCFA concurred with this recommendation.